               UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE




     G                    Office of Inspector General

     December 2008
                          Semiannual
                          Report
                          April 1, 2008 —
                          September 30, 2008




GAO/OIG-09-2
Memorandum
Date:         December 1, 2008

To:           Acting Comptroller General – Gene L. Dodaro


From:         Inspector General – Frances Garcia

Subject:      Inspector General’s Semiannual Report – April 1, 2008,
              through September 30, 2008

I am pleased to present our semiannual report that covers the Office of Inspector
General's activities for the second half of fiscal year 2008. For the first time, this
report is also submitted in accordance with Section 5 of the Government
Accountability Act of 2008.

Since April 2008, we issued 24 products:

   •    3 reports with recommendations,
   •    1 testimony, and
   •    20 opinions on financial accomplishments.

The reports deal with access to employees’ e-mail accounts and computers; three
human capital performance measures (new hire rate, acceptance rate, and retention
rate); and diversity among GAO’s top leaders and managers, with a subsequent
congressional testimony. (See attachment for report summaries.)

We also performed nonaudit services: (1) testing GAO’s controls for assuring
independence in its performance audits as part of the agency’s calendar year 2007
inspection and (2) reviewing whether GAO has a reasonable basis to claim individual
financial accomplishment reports valued at $500 million or more.

Our ongoing work includes a review of four GAO human capital performance
measures (staff development, staff utilization, leadership, and organizational climate)
and an evaluation of GAO’s information security program and practices for fiscal year
2008. We have continued to (1) monitor and take appropriate actions on complaints
from GAO’s Fraud, Waste, and Abuse Hotline and other sources and (2) meet
quarterly with the other legislative branch Inspectors General.

Currently, four recommendations remain open for the September report on diversity.

Attachment

cc: Ms. Harper
    Mr. Kepplinger
                                                            GAO/OIG-09-2 Semiannual Report
Attachment



                        Summary of GAO IG Reports Issued
                         April 1, 2008 - September 30, 2008

1. Lack of Controls over Granting Access to Employees’ Government E-mail and
   Computers (May 12, 2008)

  Finding

  The IG identified internal control concerns regarding access to employees’
  government e-mail accounts and computers. For example, the agency did not have a
  written policy on who may be granted access to employee e-mail accounts and
  computers or a system to track who is given access to employees’ e-mail and
  computers.

  Recommendation

  The report includes three recommendations to strengthen the internal controls over
  employees’ government e-mail accounts and computers. Because management has
  taken corrective action on each one, we have closed these recommendations.
  (998264B)


2. Fiscal Year 2007 New Hire, Acceptance, and Retention Rates Performance
   Measures Need Improvement and Alternative Measures Should Be Considered
   (August 5, 2008)

  Finding

  The IG reviewed three performance measures—the new hire, acceptance, and
  retention rates—that the agency uses to assess its ability to hire and retain staff.
  Beginning in fiscal year 2009, the agency has decided to eliminate the acceptance
  measure because it has become a less useful metric. The IG found that the agency
  could strengthen the reliability of the performance measures by documenting its
  procedures for ensuring data quality. The IG also identified alternative measures that
  could provide even more useful information for assessing agency human capital
  management.

  Recommendation

  The report includes three recommendations to improve the effectiveness of the
  current measures and to consider alternative measures for assessing agency human
  capital management. Because management has taken corrective action on each one,
  we have closed these recommendations.
  (998263)




  Page 2                                                   GAO/OIG-09-2 Semiannual Report
Attachment


3. Diversity at GAO: Sustained Attention Needed to Build on Gains in SES and
   Managers (GAO-08-1098, September 10, 2008)

  Finding

  Overall, GAO made gains in the representation of women and minorities in both its
  Senior Executive Service (SES) and manager (GS-15) ranks, and equivalent positions,
  between fiscal years 2002 and 2007. Moreover, top management has made a
  commitment to increasing the diversity of its workforce and has implemented many
  leading diversity management practices. We found errors in GAO's fiscal year 2007
  complaint and discrimination data in GAO's March 2008 report to Congress. In
  addition, earlier in 2008, GAO did not include accurate fiscal year 2007 complaint data
  on its Web site, as required by law. GAO has posted the correct data to both its Web
  site and intranet.

  GAO voluntarily follows two of three Equal Employment Opportunity Commission
  requirements for executive branch agencies regarding the independence and
  reporting relationships of EEO office heads. At GAO, the head of the Office of
  Opportunity and Inclusiveness (OOI) (1) reports directly to the Comptroller General
  and (2) conducts legal reviews of the agency's final decisions on complaints
  independent of GAO's in-house legal staff. Regarding the third requirement, the head
  of OOI does not solely process discrimination complaints; he also has an active role
  in the agency’s diversity efforts.

  Recommendation

  The report includes four recommendations to improve diversity in SES and manager
  ranks and to accurately report on discrimination complaint data, which all remain
  open. GAO management has agreed to implement these recommendations and begun
  taking necessary steps.
  (998266)




  Page 3                                                   GAO/OIG-09-2 Semiannual Report
